<html>
<title> - THE ECONOMIC IMPERATIVE FOR PROMOTING INTERNATIONAL TRAVEL TO THE UNITED STATES</title>
<body><pre>[Senate Hearing 112-874]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-874
 
   THE ECONOMIC IMPERATIVE FOR PROMOTING INTERNATIONAL TRAVEL TO THE 
                             UNITED STATES 

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION,
                      REFUGEES AND BORDER SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 27, 2012

                               __________

                          Serial No. J-112-68

                               __________

         Printed for the use of the Committee on the Judiciary


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

87-538 PDF                       WASHINGTON : 2012 

  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
        DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001 



                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

       Subcommittee on Immigration, Refugees and Border Security

                   CHUCK SCHUMER, New York, Chairman
PATRICK J. LEAHY, Vermont            JOHN CORNYN, Texas
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa
DICK DURBIN, Illinois                ORRIN HATCH, Utah
AL FRANKEN, Minnesota                JON KYL, Arizona
RICHARD BLUMENTHAL, Connecticut      JEFF SESSIONS, Alabama
               Stephanie Martz, Democratic Chief Counsel
                 Matt Johnson, Republican Chief Counsel



                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Schumer, Hon. Chuck, a U.S. Senator from the State of New York...     4
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     6
    prepared statement...........................................    28
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     8
Franken, Hon. AL, a U.S. Senator from the State of Minnesota.....    10
Klobuchar, Hon. Amy, a U.S. Senator from the State of Minnesota..    10
Lee, Michael S., a U.S. Senator from the State of Utah, prepared 
  statement......................................................    36

                               WITNESSES

Witness List.....................................................    27
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................     2
    prepared statement...........................................    37
Donohue, Thomas J., President and Chief Executive Officer, U.S. 
  Chamber of Commerce, Washington, DC............................    12
    prepared statement...........................................    40
Dow, Roger J., President and Chief Executive Officer, U.S. Travel 
  Association, Washington, DC....................................    15
    prepared statement...........................................    50
Gambler, Rebecca, Acting Director, Homeland Security and Justice, 
  U.S. Government Accountability Office, Washington, DC..........    17
    prepared statement...........................................    56

                               QUESTIONS

Questions from Senator Dianne Feinstein submitted to Thomas 
  Donohue........................................................    75
Questions from Senator Dianne Feinstein submitted to Roger Dow...    76
Questions from Senator Dianne Feinstein submitted to Rebecca 
  Gambler........................................................    77
Questions from Senator Mike Lee submitted to Thomas Donohue......    79
Questions from Senator Mike Lee submitted to Roger Dow...........    80
Questions from Senator Mike Lee submitted to Rebecca Gambler.....    81
Questions from Senator Jeff Sessions submitted to Rebecca Gambler    82

                         QUESTIONS AND ANSWERS

NOTE: At the time of printing, after several attempts to obtain 
  responses to the written questions, the Committee had not 
  received any communication from Thomas Donohue or Roger Dow....    84
Responses of Rebecca Gambler to questions submitted by Senators 
  Sessions, Feinstein, and Lee...................................    85

                       SUBMISSIONS FOR THE RECORD

Federation for American Immigration Reform, John Martin, 
  statement......................................................    95
McCormick, Michael W., Executive Director and Chief Operating 
  Office Global Business Travel Association, Alexandria, 
  Virginia, statement............................................   100
Letter to Senator Barbara Mikulski from Senator Mark Kirk, March 
  27, 2012.......................................................   106


   THE ECONOMIC IMPERATIVE FOR PROMOTING INTERNATIONAL TRAVEL TO THE 
                             UNITED STATES

                              ----------                              


                        TUESDAY, MARCH 27, 2012

                               U.S. Senate,
 Subcommittee on Immigration, Refugees, and Border 
                                          Security,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Subcommittee met, pursuant to notice, at 10:10 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the Subcommittee, presiding.
    Present: Senators Schumer, Feinstein, Franken, Klobuchar, 
and Sessions.
    Chairman Schumer. With the permission of the Members of the 
Committee, we will waive opening statements until after Senator 
Mikulski gives her remarks, if that is fine with everybody. 
Great.
    Senator Mikulski. It is fine with me.
    [Laughter.]
    Chairman Schumer. Mr. Franken objects, Senator Mikulski. I 
want you to make a note.
    Senator Franken, having thought it over, withdraws his 
objection.
    OK, so let me then call on Senator Mikulski, who has worked 
hard with us on this bill and is one of the lead sponsors and 
is interested in some particular provisions in the bill, but 
has been supportive of the entire bill that we have.
    We are going to waive, if that is OK with you, Senator 
Sessions, our opening statements until after Senator Mikulski 
gives her opening remarks.
    Senator Sessions. We do not get to pontificate?
    Chairman Schumer. We do, but a little bit later.
    Senator Sessions. Later. OK. On our own time.
    Chairman Schumer. No. We can do opening statements.
    Senator Sessions. Thank you.
    Chairman Schumer. So let me recognize Senator Mikulski, 
whom we were all joyous, I guess is the right word, about her 
record-setting stint in Congress that we all celebrated and 
spoke about last week. But as she has said, it is not how long 
you serve but how well you serve, and today is an example of 
how well she is serving.
    Without further ado, Senator Mikulski.

STATEMENT OF HON. BARBARA A. MIKULSKI, A U.S. SENATOR FROM THE 
                       STATE OF MARYLAND

    Senator Mikulski. Thank you very much, Senator Schumer and 
Members of the Judiciary Committee. Again, I might be the 
longest serving, but I assure you I will not be the longest 
talking at this hearing.
    I am pleased to be here and joined also this morning by the 
Chamber of Commerce and by the hotel industry and so on. I want 
to talk about reforms that I am suggesting that are included in 
the JOLT Act, but I want to say, first of all, thank you to 
this Committee and, Senator Schumer, for your leadership in the 
bill itself, because I am a strong supporter of this bill. I 
think we need to do two things: We need to enhance and 
facilitate people being able to visit our country, come and do 
their business, get their health care, like many do when they 
visit Hopkins or Maryland, or be leisure tourists and then 
return home.
    We also, though, while we encourage visitors, need to stand 
steadfast and true to protect our borders. I, therefore, want 
to thank Senator Feinstein for her most welcomed advocacy in 
the area, particularly in the Visa Waiver Program.
    I want to talk today about the visa waiver provisions in 
the bill that I developed along with my esteemed colleague, 
Senator Kirk of Illinois. I have a letter from Senator Kirk I 
would like to share with the Committee at the end of my 
testimony.
    Mr. Chairman and Members, I am here because I think the 
Visa Waiver Program Enhanced Security and Reform Act, which I 
introduced and is now part of this bill, is an opportunity to 
revisit, refresh, and reform the Visa Waiver Program. It has 
three goals: protecting our borders, creating American jobs by 
increasing visits to the United States, and honoring and 
respecting our most treasured allies. I introduced this bill 
with Senator Kirk. All of you know Senator Kirk is a naval 
reserve officer, an intelligence officer who also served in 
Afghanistan. So when we developed our reforms, we were 
absolutely committed to protecting our borders. And as I said, 
Senator Feinstein has been an activist in this and has made 
many great recommendations.
    Reforms have not been made since 2007, and in those five 
years since we changed the Visa Waiver Program, threats have 
evolved, technology has changed, and it is a time to look at 
lessons learned.
    So why are my elements very good? Modest as I am in saying 
that, this bill would allow the Secretary of Homeland Security 
to allow countries that meet national security requirements to 
participate in the Visa Waiver Program. But let me be clear. 
Even if a country meets those security requirements, it is not 
a guarantee of entry into the Visa Waiver Program. The 
Secretary must determine a country does not pose a security 
threat to the United States before it can come into the Visa 
Program. So Senators Kirk and Mikulski are committed to 
protecting our border and that the Visa Waiver Program not be a 
back door for a country to get in that does not want to respect 
our security protocols.
    Second, it also creates a probation system for countries 
not following the rules. It requires the Secretary to place a 
country on probation if it does not shape up in one year. In 
order to meet the requirements of the bill, meet the reforms 
they need to do in their home country, the message is simple: 
Get it right or get out. So once you are in, it does not mean 
you stay in. You must, again, meet these security requirements.
    It also strengthens the ability of the United States to 
track lost passports. In the Visa Waiver Program, countries 
have to keep tight controls on passports and must report lost 
or stolen passports to Interpol. I visited Interpol and found 
that what they do on the lost and stolen passport is 
significant. It also gives the Secretary discretion to allow 
countries to join the Visa Waiver Program, and what we do is 
this: In the past, we counted the number of refusals by our 
consulate, and if you were above a certain percentage, you 
could not get in. But it did not count the most important 
thing, which was overstays, where people use the Visa Waiver 
Program, the good will invested in the Visa Waiver Program, and 
they just used it to come in and kind of disappear into our 
National ethers. That is unacceptable. So what we have done in 
our reform is focus on the overstay rate and tracking the 
overstay rate.
    The second thing is to look at real numbers. They were 
counting refusals, but somebody could come 12 times, and it 
would be counted as 12 separate applications rather than one 
person coming. There are older women in Warsaw and Krakow and 
Gdansk right this minute who want to visit grandchildren in 
Chicago and drop a thank-you note off at Senator Kirk's office 
who might be coming to the visa office and the consulate office 
in Krakow 12 times, but it is still the same old Polish lady. 
Or it could be the scientist, or it could be the Polish 
students in Canada. So we reform that by looking at the number 
of people rather than the number of applications.
    We know the Visa Waiver Program works. Most recently, in 
granting South Korea their ability to come in, there was a 49-
percent increase in South Korean tourists. This resulted in 
great visits, money spent in our country, and jobs in our 
tourism and leisure world.
    I am here--and I got very interested in the Visa Waiver 
Program because of Poland, and it is something that drew 
Senator Kirk and I together in addition to our work on national 
security.
    Chicago is the home base, if you will, of most of the 
Polish heritage organizations. Poland is really cranky that it 
is not in the Visa Waiver Program. In fact, when any foreign 
leaders visit, they are cranky to volcanic, and the reason that 
they feel that way is they feel that they are great allies, 
they have been steadfast and true, they feel that they have 
always counted on the United States of America, and they serve 
with us in many capacities. During the darkest days of 
communism, a Polish electrician named Lech Walesa jumped over a 
wall in the Gdansk shipyard. He took the whole world with him 
when he went. But when he landed on the other side, he had 
President Reagan on his side, and then working together and 
working with the free world, we were able to bring down that 
Iron Curtain. But that Iron Curtain is still a problem because 
Poland cannot come into the Visa Waiver Program.
    When they asked for the Coalition of the Willing, Poland 
was the first to step up. Their troops fight and die alongside 
of our troops in Iraq and Afghanistan. They do not understand 
why it is OK to go to Afghanistan with the United States of 
America but not be able to visit the United States of America 
under the Visa Waiver Program. They are acting as our emmissary 
in Syria, looking out for American interests in Syria. So it is 
OK for them to protect us and act on our behalf, but that 
Polish lady, that Polish scientist from the Copernicus 
Institute, cannot visit without a visa.
    In reforming the Visa Waiver Program, I would hope that we 
have the kind of rules in the game that acknowledge where there 
is someone that is a treasured ally, a consistent and 
persistent ally, can be able to visit the United States if they 
work to defend the United States. So I hope you take a look at 
the legislation. I really want to help move the JOLT Act. And 
Senator Kirk has a letter that he wants into the record that 
will--he just says he is sorry he cannot be here, and we are 
sorry he cannot be here. He was just great to work with on 
this. We worked very well with all of you. He looks forward to 
returning to the Senate to move this to the floor.
    Mr. Chairman, I want to thank you for your courtesy, and I 
hope the JOLT Act moves forward and that these Visa Waiver 
Programs are in it.
    [The prepared statement of Senator Mikulski appears as a 
submission for the record.]
    Chairman Schumer. Well, thank you very much for your 
excellent testimony, and without objection, we will add Senator 
Kirk's comments to the record. We know he is here in spirit, 
and we know he wants to help us move the act quickly.
    Senator Mikulski. Thank you.
    [The letter from Senator Kirk appears as a submission for 
the record.]
    Chairman Schumer. I know you have a busy schedule, and 
thank you for being here, Senator Mikulski.
    Senator Sessions. Thank you, Senator Mikulski. That was 
very, as you always are, honest, direct, and to the point, and 
we get your message, and I think it has great value. We need to 
listen to it and see what we can do, and thank you for 
remembering Senator Kirk. We look forward to his return and 
participation actively on this issue.
    Chairman Schumer. Thank you.
    Senator Sessions. And congratulations on your fabulous 
service to our country.
    Senator Mikulski. Thank you.
    Chairman Schumer. Any questions of Senator Mikulski?
    [No response.]
    Chairman Schumer. Thank you for coming, Senator. We 
appreciate it.

 OPENING STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Chairman Schumer. OK. Now we will go to opening statements, 
and then we will call our next panel of witnesses.
    I want to thank everybody for coming. Today's hearing is on 
the importance of promoting and facilitating international 
travel to the United States in order to create jobs. This is a 
jobs bill, no question about it.
    International travel to the U.S. represents a significant 
component of our economy. To give some context, the average 
overseas visitor spends about $4,000 in America per visit. In 
total, foreign nationals spent more than $134 billion in travel 
to the U.S. last year. It supported 1.8 million American jobs, 
represented 8.7 percent of exports of goods and services. That 
is huge for our economy at a time when we are looking to grow, 
and it is one of the growing industries in America, one of 
those industries with a future, as the world becomes more 
affluent and more people can travel.
    The global travel market is expected to double over the 
next decade, reaching $2.1 trillion, making it an increasingly 
important contributor to GDP growth. In 2000, the U.S. had a 17 
percent share of worldwide overseas travel, but over the last 
10 years, our market share has decreased to less than 12 
percent. That is a dramatic drop in just 10 years. The single 
greatest reason for this decrease in market share is our 
inefficient visa system. The visa process is highly uncertain, 
lengthy, and costly. In some countries, the wait time for U.S. 
visas can be as long as 100 days. The $140 visa application fee 
is non-refundable, must often be combined with other costs, 
such as to travel to distant consulates and lost work time, all 
of which makes travel to America less appealing.
    If we had kept pace with the growth in global overseas 
travel between 2000 and 2010, 78 million more travelers would 
have visited the U.S., adding a total of $606 billion extra to 
the economy and an additional 467,000 jobs per year. If we can 
recapture our historic share of worldwide overseas travel by 
2015 and maintain that share through 2020, it will add $100 
billion to the economy and 700,000 jobs.
    People want to come to America. Wherever we go, they want 
to come, and they say, ``Why do you make it so hard? '' And it 
does not make much sense. We can balance security and 
efficiency.
    And so today we will discuss S. 2233, the Jobs Originated 
Through Launching Travel Act. That is how we get JOLT. It is a 
bill that a bunch of us have introduced: myself, Senator Lee, 
Senator Mikulski, Senator Klobuchar, Senator Blunt, Senator 
Kirk, and Senator Rubio--four Democrats, four Republicans. It 
is a completely bipartisan bill in the spirit with trying to 
get things done in a bipartisan way, and I want to thank so 
many people who worked on this bill. I want to give particular 
thanks and a shout-out to Senator Klobuchar. She introduced the 
first travel bill with Senator Blunt. And because many of her 
ideas were so good and did not require legislation, the 
President already adopted a lot of her recommendations, and 
that is why she graciously folded the remainder of her bill 
into ours. Some of the things that were included in her bill 
were to add more agents to process visa in Brazil, India, and 
China.
    When we went on our codel to China last year, we visited 
one of these places, and the lines were enormous, and the 
people told us, those who we could speak to in English, they 
traveled two days, missed work, and then they were not sure 
they would get their visa--800 miles--because we only had a 
very limited number.
    Also, the administration has adopted measures including 
tracking to see how fast the visas are being process because no 
one had any idea. So let me go over the ways our bill creates 
jobs.
    First, we encourage the State Department to issue Chinese 
visitor visas that last longer than the current one-year 
maximum. You go through an extensive background check. A year 
later, you should not have to go through it again to come back, 
particularly if you are a business person. This will encourage 
travel from China by making it faster for new travelers to get 
visas and by alleviating the burdens repeat travelers have to 
bear each year.
    Second, we require the State Department to develop premium 
processing to expedite issuance of tourist and business visas 
for those willing to pay a substantial fee, not costing us any 
money. I just happened to turn in that direction. With these 
funds, we will invest in adding more capacity so everyone's 
visas can eventually be processed faster.
    We permit Canadian snowbirds to stay here for 60 more days 
a year. They want to stay here. They spend a lot of money. Why 
not let them stay? It does not do any harm to our security.
    We change the visa fee structure to spread demand for visas 
evenly across all four seasons and increase total visa numbers. 
We allow Customs and Border Protection to add important foreign 
dignitaries to the global entry program on a case-by-case 
basis. We set tough standards for visa processing times and, 
most importantly, we make much needed changes to the Visa 
Waiver Program to update eligibility requirements and make the 
program more secure--not less but more. And if enacted, Poland 
would be added to the Visa Waiver Program, which Senator 
Mikulski eloquently talked about.
    The legislation is endorsed by the U.S. Chamber of 
Commerce, the U.S. Travel Association--they are both here 
today--as well as many other industry groups and labor union 
groups. I hope we can pass this bill as quickly as possible to 
create thousands of jobs. We are looking for ways that we can 
get jobs created in a bipartisan way.
    Speaker Boehner, Senator Reid, Senator McConnell, and 
Minority Leader Pelosi have all said they seek job-creating 
measures that are bipartisan. Well, voila. The work of the 
eight of us and many others has made that happen, and I hope we 
can move quickly.
    Let me call on Senator Sessions first and then my other 
colleagues for opening statements.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. The JOLT Act, I thought, Chuck, that was 
your middle name, JOLT.
    [Laughter.]
    Senator Sessions. Well, you have jolted this forward. This 
is something that we need to work on, we can improve. We can 
enhance job creation in America, and every single thing we do 
that rationally and reasonably and responsibly creates growth 
and jobs in America we should try to do. We even supported 
together the currency bill that I think would have helped 
create jobs here and create fairness in our trade system.
    So the Visa Waiver Program is a good program. It has to 
have integrity. It cannot be politicized. Every country seems 
to feel if they are not in it, they are somehow aggrieved. But 
those countries still have the opportunity to emigrate, as most 
countries did just a few years ago with the same requirements.
    So the Visa Waiver Program is good. It should have certain 
standards. It should be reviewed, and nations should qualify 
for it. For reasons I am not quite sure, Poland has not 
qualified. They have worked really hard to get in, and there 
has been a lot of attention given to it, but they just have not 
met the standards the State Department has required. We can 
look at that, but we do not want to politicize the process.
    I do believe that countries not in the Visa Waiver Program 
can also benefit from streamlined, technologically advanced 
screening processes that will reduce the cost and delays in 
coming to America. We just had in rural Alabama, in 
Monroeville, a group of Chinese business people come, about 60. 
More would have come. The number exceeded the number that could 
have been accommodated, and a number did not make it because of 
visa problems. These were pretty significant people looking to 
invest in America. So we do need to make sure the countries 
that do not qualify for the Visa Waiver Program are able to 
proceed effectively.
    Now, I am so pleased--and Senator Mikulski and you 
mentioned integrity in the system, because one of the gaps, one 
of the problems is that we have no exit system that records 
exits. This should easily be able to be done. A decade ago, we 
were talking about this, Actually, the law, as I recall, 
required it to be in effect by 2004, if not earlier. President 
Bush promised he was going to do it. He never did it. President 
Obama is not. Now, I understand in a few months, maybe by May, 
we will have a report on how to create an exit system. But 
since probably 95-plus percent of our visitors exit at 
airports, that should not be hard to do. And if you have the 
right kind of card, it seems to me you could put that in a 
machine and it would read it like--remember that great speech 
Newt Gingrich used to give about being in Europe and putting 
his card in the machine and a bank in Atlanta within seconds 
delivers money into his hand in France? So we should be able to 
do this effectively, it seems to me, and I do believe one of 
the problems in not advancing further has been the failure to 
complete an exit system that would work.
    Mr. Chairman, thank you. I will scrutinize this bill, but 
it looks pretty good, and I certainly can say that I would 
favor most of it for sure. I do believe the overstay problem is 
important, and I think if we address that, we might surprise 
ourselves how much progress we could make.
    Chairman Schumer. Senator Sessions, thank you for your kind 
comments, and we look forward to working with you to try and 
move it forward, and we want to hear your suggestions.
    [The prepared statement of Senator Sessions appears as a 
submission for the record.]
    Senator Feinstein has been very active in the Visa Waiver 
Program and wants to make sure it is tight and secure, and I 
know she had discussions with Senator Mikulski about that. Let 
me call on her.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. That is right. Thank you very much, Mr. 
Chairman. I have watched the Visa Program now for 20 years. I 
have held multiple hearings. I have said over and over again 
that it is the soft underbelly of our Nation's immigration 
system because it offers the citizens of 36 nations to visit 
the United States for tourism or business for 90 days or less 
without a visa. We do not verify that that individual returns 
to their home when the visa runs out in 90 days.
    The program brings in more than 17 million foreign 
nationals. Some have estimated that as much as 40 percent of 
the undocumented population is visa overstays. So we have a 
whole immigration system to consider as we do this.
    I have asked and asked that there be an exit system. I just 
met with Mr. Heyman, I think last week, Assistant Secretary of 
Department of Homeland Security, who told me that by June 2012, 
the Department of Homeland Security will have a fully operative 
biographic exit system in place and will provide real-time 
information for those who exit U.S. airports. However, I have 
heard that before and before and before.
    The new exit system is expected to allow DHS to calculate 
overstays per country by April or May of this year. We will 
see.
    In September 2012, DHS will begin two pilots at Canadian 
land ports of entry that will allow DHS to receive traveler 
entry data directly from the Canadian Government. DHS will use 
this data to match it with that data that were received when 
the traveler enters the United States. The pilot will be 
expanded to all Canadian land ports next spring. DHS is working 
with the Mexican Government to establish a similar pilot 
program.
    Mr. Chairman, I cannot support doing this prior to the time 
there is an exit system that has been tested in place. We have 
to remember Richard Reid, the shoe bomber, came in on a Visa 
Waiver Program. Moussaoui came in on a Visa Waiver Program. And 
I can say, as Chairman of the Intelligence Committee, I know 
that visas are being scrutinized abroad as they have never been 
scrutinized before. I also know that there is a very good 
reason for this. I was the one that put the 10 percent and 
convinced Senator Lieberman to put it in the Department of 
Homeland Security bill.
    Now, since then, Poland, for example, has had a major 
program to educate people and has been able to drop their 
overstay rate to something like 3.2 percent. That is excellent. 
So what Senator Mikulski proposed here today I have no problem 
with. I am happy to support it.
    Now, you have got distinguished Americans before us who are 
saying, ``We need this for travel and tourism.'' I can tell you 
there is no dearth of Chinese efforts to buy companies in the 
United States. There is a lot of that going on. I am really 
concerned about extending this. China will not reciprocate. In 
other words, we cannot hold somebody in detention if they 
violate the visa entry. They then become part of the 
undocumented population of the United States. And China will. 
However, China will not make a reciprocal agreement, at least 
to this point. To do it one-sided to me makes no sense. But to 
do it before we have this exit system in place is something 
that I believe is foolhardy. I cannot support it. If another 
terrorist came in on a visa entry program and without an exit 
and stayed in this country, as the Chairman of the Intelligence 
Committee, I could never forgive myself. You know, it is that 
clear in my mind because of what I know.
    No one should think that people are not plotting against 
us. No one should think that they are not trying to come after 
us. The FBI has made 20 arrests this past year alone, announced 
in public, of people who participated in, raised money for, or 
conspired to commit terrorist attacks in this country. So the 
exit system becomes integral to a program.
    Additionally, I understand there are some Eastern European 
countries that if you go into for 24 hours, you are then 
eligible to go to another country and come in on a Visa Waiver 
Program. So, you know, I know the chamber has good points, and 
I want to facilitate all of this. But I do not want to do it at 
great risk to our country. And--well, I was just sent a note. 
Maybe I misstated it. China will not take back visa overstayers 
in this country. So that is the problem, and this means that 
you can have tens of thousands of people coming here from China 
and overstaying their visas.
    So I think, you know, we should listen to this testimony 
carefully. Unfortunately, I have to leave at 11. I chair the 
International Caucus on Drug Control, and we have the Afghan 
Minister for counternarcotics at 11 o'clock.
    Chairman Schumer. That sounds important.
    Senator Feinstein. I think it is. He is doing a good job, 
actually, by building food zones in those southern Afghan areas 
to replace the poppy and needs help in doing more of it.
    So that is my view in a sort of straightforward way, and I 
appreciate the time to express it. Thank you.
    Chairman Schumer. I think, Senator Feinstein, you have a 
great deal of expertise and a major responsibility, and we want 
to work with you because we believe we can tighten the program 
up.
    Senator Feinstein. I would be happy to work with you.
    Chairman Schumer. I agree with you, the exit program is 
very important so we can keep track of who goes out when they 
come in. And they say they are going to have it ready by May. I 
do not know if that is true. They have said it before. You are 
right. My staff says that he thinks it is for real this time, 
but we shall see. But we want to work with you.
    Senator Feinstein. You should get them in here and be sure, 
and one is Mr. Heyman, Assistant Secretary.
    Chairman Schumer. I know. But thank you for your work, and 
we look forward to working with you.
    Senator Feinstein. Thank you.
    Chairman Schumer. And thank you for working with Senator 
Mikulski on her particular issue, which is very important.
    Senator Sessions. Thank you, Senator Feinstein. You have a 
historical knowledge that was so valuable. Thank you for 
sharing it.
    Chairman Schumer. Senator Franken.

STATEMENT OF HON. AL FRANKEN, A U.S. SENATOR FROM THE STATE OF 
                           MINNESOTA

    Senator Franken. I want to thank you, Chairman Schumer, for 
holding this hearing and Senator Mikulski for her powerful 
testimony. Thank you, Senator Feinstein, for your concerns. And 
I would like to commend my Minnesota colleague, Senator 
Klobuchar, for her terrific work on this issue. This is an 
important issue for our Nation and for my State. Tourism and 
travel are a huge part of the Minnesota economy, generating 
$11.3 billion in sales and supporting over 200,000 jobs. Travel 
and tourism also generate $732 million in State sales tax, 
which is 17 percent of our total sales tax revenue. It is very 
important to us. And it is no wonder that travel is such a 
major part of the Minnesota economy. We are world renowned for 
our natural beauty, the beauty of our land and our lakes. It is 
the perfect setting for hunting and fishing and many other 
outdoor activities. And then there is the Mall of America where 
tourists represent about half of their annual sales.
    And the tourism industry has actually been growing in 
Minnesota. That means we are all the more poised to benefit 
from increases in international travel, the subject of today's 
hearing. As our witnesses are making clear, the last 10 years 
have seen a significant increase in global international 
travel, but the United States has seen our share of that travel 
shrink. There have been several reasons for that, but we now 
have an opportunity to pass common-sense measures to spur more 
travel to the United States by business people and tourists 
without reducing our National security.
    The demand for travel to the United States from fast-
growing countries like China, like Brazil, and like India is 
there. We need to be able to meet that demand, and that is what 
the JOLT bill does by lowering barriers to access that do not 
make a lot of sense and by increasing the capacity of the State 
Department to process visas more quickly without any loss in 
confidence in the process.
    I thank the witnesses for being here, and I thank the Chair 
for this hearing.
    Chairman Schumer. Thank you, and thank you for your active 
participation today, Senator Franken, and on the proposal.
    Senator Klobuchar, I mentioned, is the--well, she is one of 
the originators of this idea. I was going to use another word, 
but I did not want to. I was going to say ``Godfather'' and 
then say ``Godmother.''
    Senator Klobuchar. Then you got all tied up in gender 
politics.
    Senator Feinstein. Only because it has not been tried a 
lot. You should make ``Godmother''----
    Chairman Schumer. I think I will leave that to you and Amy, 
if you wish.
    Anyway, Senator Klobuchar.

STATEMENT OF HON. AMY KLOBUCHAR, A U.S. SENATOR FROM THE STATE 
                          OF MINNESOTA

    Senator Klobuchar. Thank you very much, Senator Schumer. 
Thank you, all of you, for being here. Thank you, Senator 
Feinstein, for your thoughtful comments. I think it is 
important that security is front and center. I know no one 
knows that better than Senator Schumer after what happened with 
New York City. And so I think all of us have been aware of that 
from the beginning as we have approached this issue, and I am 
still very excited about this bill and the work that we have 
done with Homeland Security, that Senator Blunt and I have done 
with them, as well as the State Department, to move forward. 
Because when you look at the real facts here, we have lost, 
since 9/11, 16 percent of the international tourism market. And 
the way I look at it is not just the percentage points. Anyone 
can look at that. But every point we have lost is 160,000 jobs 
in this country, and it is time to get back those jobs.
    Some of this is going to involve advertising our country 
internationally so we are finally on an even playing field, and 
a lot of it has to do with the rules and regulations that have 
to change.
    In my State, I was thinking of Senator Schumer with his 
Empire State building--I thought that would make you stop 
talking--with his Empire State building----
    Chairman Schumer. Hard to get anything that does.
    Senator Klobuchar. I know, but it worked. And the Statute 
of Liberty. In Minnesota, Senator Franken gave you the stats, 
but I will give you some even better ones. How much do you 
think we spend on worms and bait every year in Minnesota? How 
much money do you think we spend, Senator Schumer?
    Chairman Schumer. A net load.
    Senator Klobuchar. Fifty million dollars a year people 
spend in our State on worms and bait because fishing is so 
important to our economy. And my favorite stat, the Mall of 
America, more people visit the Mall of America every year than 
there are people living in the country of Canada. A true fact, 
more than 40 million people visit every single year. These 
international tourists spend an average of $4,000 to $5,000 a 
year, and that is why Senator Blunt and I put together our 
bill. As Senator Schumer pointed out, many of those 
recommendations were already adopted by the President in his 
Executive order. We continue to work with the State Department 
to figure out how to put incentives in place, business-type 
incentives, so that they put the consulate officers where the 
people are. Those consulate officers are profit centers for the 
Government, generating sometimes $1 million in fees a year. And 
so trying to get those consulate officers there doing their 
job, protecting the security that Senator Feinstein referenced, 
is going to be very important.
    This bill, I love the authors of this bill, with Senator 
Blunt and myself, I would have to mention Branson, Missouri, or 
I cannot go on since we do everything together, also a very 
important tourist spot, as well as Senators Mikulski, Kirk, 
Lee, Rubio, and Senator Schumer. I think it really tells 
great--I think the authors alone will tell you how important 
this is to our country as we move forward to business. It is 
the best way to pick up those export numbers. The jobs are here 
in America, so I am excited to move forward and work with you, 
Senator Schumer, to get this bill passed.
    Thank you, everyone.
    Chairman Schumer. Thank you. And we are looking to get a 
broad consensus, because while obviously we believe this bill 
would merit time on the floor, if we could get it done by UC, 
that would be great.
    OK. I want to thank our witnesses for being here, and your 
being here shows how important this bill is. I would like to 
particularly welcome Tom Donohue, because he is my home boy 
from Brooklyn, New York.
    [Laughter.]
    Chairman Schumer. He is president and CEO of the Chamber of 
Commerce. He has held that position since 1997. That is pretty 
good, 15 years in a very tough job. It is the world's largest 
business organization. It represents three million businesses 
of all sizes, sectors, and regions. Members range from mom-and-
pop shops and local chambers to leading industry associations, 
and he was educated at two of the greatest universities in the 
world: St. John's University and Adelphi University, one in 
Queens and one in Nassau County.
    Roger Dow is president and chief executive officer of the 
U.S. Travel Association, a position he has held since 2005. I 
do not know where he is from originally, but I am sure it is a 
nice place.
    Mr. Dow. South Jersey.
    Chairman Schumer. Oh, Jersey, good. Almost as good as 
Donohue. The U.S. Travel Association is the national umbrella 
organization representing all segments of the $770 billion U.S. 
travel and tourism industry. It is headquartered in Washington 
but has an active presence in Europe, Asia, and Latin America. 
Mr. Dow rose through the ranks at Marriott International in a 
career that began as a summer lifeguard at the sixth Marriott 
Hotel. Where was that?
    Mr. Dow. Saddlebrook, New Jersey.
    Chairman Schumer. Saddlebrook, oh, yes. I bet you got good 
tips there as a lifeguard in Saddlebrook. And he spanned 34 
years to become senior vice president global and field sales, 
leading Marriott's 10,000-person worldwide sales organization.
    Rebecca Gambler is Director of Homeland Security and 
Justice issues at the GAO, a valued public servant, and she 
joined GAO in 2002 and has worked on a wide range of issues 
related to homeland security and justice, including border 
security, immigration, and Department of Homeland Security 
management and transformation. Although she has three master's 
degrees, I will mention her degree from Syracuse University, 
another one of the greatest universities in the world, and I 
watched--Senator Gillibrand and I had to give a speech in 
Albany, and we stayed at the airport and watched the game, 
sadly, but maybe next year Syracuse will make the Final Four.
    In any case, I thank all of the witnesses. Their entire 
statements will be read in the record, and we look forward to 
your testimony.
    Mr. Donohue, you may proceed.

 STATEMENT OF THOMAS J. DONOHUE, PRESIDENT AND CHIEF EXECUTIVE 
   OFFICER, UNITED STATES CHAMBER OF COMMERCE, WASHINGTON, DC

    Mr. Donohue. Thank you very much, Senator, and I appreciate 
the comments about New York. We have gone deeper in that in our 
occasions when we might disagree about something by suggesting 
who came from which neighborhood, but that is for another day.
    We are very honored and pleased to be here, and I know, 
Senator Feinstein, that you have to leave at 11. I have one 
point and I will get to it before you have to go. But all 
Members of the Senate and to you, Mr. Chairman, thank you for 
putting together this hearing and for pushing forward on this 
important issue.
    The U.S. Chamber of Commerce is singularly focused on 
economic growth and job creation, and this is a jobs bill. 
Promoting business travel and tourism to spur growth, to create 
jobs, and boost exports is one of our top priorities.
    Now, let me be crystal clear about why these issues are so 
important to the business community. America's trade 
relationships and economic prosperity depend on the ability of 
foreign customers to travel to the United States to visit our 
manufacturing operations, inspect products and services they 
are purchasing, and negotiate contracts. Many of our member 
companies are global in nature, and many of those are small 
companies. They need to bring key employees to America from 
overseas to attend meetings, to receive training, and to 
integrate project work and meet with U.S. business partners. 
Technology has been great for business communications, but 
there are no replacements for face-to-face business meetings. 
It is still an essential part of American companies' ability to 
thrive and compete in the global economy.
    When travel is unnecessarily impeded, when visitors get 
frustrated with long visa delays, when they get hassled at an 
airport, America's bottom line takes a beating. When it is 
necessary to protect our security, we fully support it, 
however, Senator.
    This applies not just to State travelers but to tourists as 
well. The travel and tourism industry currently employs 7.4 
million Americans and generates more than $700 billion in 
revenue. And guess what? When foreign visitors spend their 
money here, it is counted here as an export. But we are leaving 
travel-related jobs and revenues on the table because we are 
not laying out the welcome mat as much as we should to 
travelers and tourists.
    Consider what is at stake. If we could restore the U.S. 
share of the global travel market to its 2000 level--granted, 
that was before the recession--we could create 1.3 million 
jobs, generate $860 billion in economic activity without 
costing the taxpayers a single dime.
    As to the JOLT Act, that is why the chamber is pleased to 
strongly support the Act. If passed, the legislation could 
dramatically increase international travel to the United States 
by reforming the visa process and removing impediments, 
hassles, and other deterrents that keep tourists and business 
people from visiting our country. It would do so in four 
fundamental ways.
    First, one of the most important ways the JOLT Act could 
strengthen our economic system and create jobs is through the 
expansion of the Visa Waiver Program. And, Senator Feinstein, 
one of the issues--and I am going to come and visit you about 
this, because I am very committed and deal in many of the same 
venues that you do, is the safety of our country. But my 
understanding is that this bill would not put China into the 
Visa Waiver Program. But your arguments about how long Chinese 
tourists who come in through other systems stay here is valid 
and should be addressed in the activities that we all hope get 
done before the summer. So I am going to make an appointment to 
come and talk to you about that.
    Senator Feinstein. Thank you.
    Mr. Donohue. Thank you.
    Then, when we are talking about the Visa Waiver Program, 
travelers make up one of the largest sources of our inbound 
overseas travel to the United States, and according to the 
Department of Commerce--and we have got to get Commerce 
numbers, and we have got to go make sure we have numbers from 
Homeland Security as well because they do not always jibe-65 
percent of all overseas visitors to our country travel under 
the program. I think we ought to ask the question that you 
raised: How many of them went home? Many of them go home and 
come back and go home and come back. But we need to figure out 
how to follow that. And while they are here, these visitors 
spend, as we said, a lot of money.
    In addition to the obvious economic benefits, expansion of 
this program would actually make our Nation more secure if we 
did some of the things the Senator was suggesting.
    Before getting accepted into the program, countries must 
agree to adopt strict security measures, strong travel document 
standards, and enhance information sharing. Maybe that is why 
China would not be included in this particular deal. Together, 
the economic and national security benefits of the Visa Waiver 
Program amount to a huge win for the U.S.
    Our second reason for supporting the Senator's bill, the 
legislation would give travelers an option to expedite their 
visa for a fee. Expedited visa processing is especially useful 
for companies because it allows them to effectively move their 
personnel and clients to the United States to conduct business. 
And we all know that in a global economy, speed and flexibility 
are vital to success.
    The third reason we support it, the Act would allow the 
State Department to offer lower visa application fees for 
business visitors and leisure travelers during typical off-peak 
seasons of low demand. It is like a sale at the Mall of 
America. It is a good thing to do. This would incentive those 
travelers with greater flexibility to plan ahead.
    And, finally, the JOLT Act would bring some needed 
predictability to the U.S. visa application process by 
requiring the State Department to process and interview visa 
applicants within a two-week window. This requirement would 
encourage the State Department to hire enough consular officers 
to consistently meet the two-week timeframe. And while the 
Department has reduced delays, we still have a long way to go. 
But, again, coming back to Senator Feinstein's suggestion, 
people could be taken out of line that need a longer period of 
review so that the great majority of visitors to the United 
States could be processed in a hurry.
    So let me conclude. All told, the chamber believes that the 
JOLT Act would allow the United States to recapture a good 
portion of its share of the global travel market and help 
Americans get back to work. Put in a simple sentence. Canadians 
now go and visit Europe more often than they ever did because 
they cannot get into the United States in a reasonable 
timeframe. That is not smart. The chamber is collaborating with 
Roger Dow and our friends at the Travel Association and other 
partners to unleash the economic power of the U.S. travel and 
tourism industry. To do so, we need to reduce the hassle factor 
for visitors; we need to provide adequate resources to our 
consular posts to do an efficient, time-effective job; we need 
to bring more countries, after careful scrutiny, into the Visa 
Waiver Program. And with a struggling economy, we cannot afford 
to forgo this business. We need to ensure that when tourists 
are ready to travel and business people are ready to make 
deals, they come to the greatest destination of them all--the 
United States of America.
    Thank you very much. I appreciate the opportunity to be 
here, and thank you, Senator, for staying while we made those 
comments.
    [The prepared statement of Mr. Donohue appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Mr. Donohue. We look forward 
to your visit with Senator Feinstein, and we want to make sure 
all those Canadians go fishing in Minnesota, not Scotland.
    Mr. Donohue. Well, I bet you a lot of them go to Minnesota, 
and some of them come across the border legally.
    Senator Klobuchar. Of course they do because, as you now, 
Senator Schumer, we can see Canada from our porch.
    [Laughter.]
    Senator Klobuchar. OK. It is a bipartisan event.
    Mr. Donohue. No, that was fine.
    Chairman Schumer. Mr. Dow.

   STATEMENT OF ROGER J. DOW, PRESIDENT AND CHIEF EXECUTIVE 
   OFFICER, UNITED STATES TRAVEL ASSOCIATION, WASHINGTON, DC

    Mr. Dow. Thank you, Mr. Chairman and Senators, for this 
very important session. Increasing inbound travel is a huge 
economic benefit. You very articulately went through the 
numbers, as did my colleague, Tom Donohue, so I will spare you 
that. But when you look at it, three percent of our GDP is 
travel and tourism, 4.5 percent of our jobs, a very labor-
intensive business, and that does not even count the people who 
come and buy Caterpillar tractors, et cetera.
    As Mr. Donohue said, it does not cost the taxpayers a dime, 
and I think that is so important. They come here, they spend 
their money, they go home. We do not have to give them health 
care. We do not have to fix their potholes. We do not have to 
feed their homeless. It is a beautiful thing.
    When you talk about the revenues, they are breathtaking, as 
you have said--$130-some billion--they are huge. America's 
largest service export. Chinese travelers spend upwards to 
$6,000 per visit, and many want to come and do the Robert Trent 
Jones Golf Trail, so it will be huge in your area and spend 
that money in Mall of America.
    But business travelers, I think, are so important because 
when they do not come here, as Mr. Donohue said, they do not 
sign the contracts, they do not buy the Caterpillar tractors, 
they do not buy our electronic goods.
    As you have all stated, we have not remained competitive. 
We have lost share. And that lost decade has cost us a 
tremendous amount, as you said, Mr. Chairman.
    We applaud recent progress. The State Department has made 
great progress. Mr. Tom Nides and his group have been 
tremendous in pulling down the wait times, as you said, that 
used to be over 100 days. President Obama's Executive order is 
going to make a huge difference in having a strategy for travel 
and tourism and really greatly increase it. And Congress is 
paying close attention.
    This JOLT Act is absolutely the right name. It will jolt 
the economy. The infrastructure is built here. You do not have 
to build another Mall of America. You do not have to build 
hotels or airports. It is there. It is just turning on the 
faucet a little bit.
    When you look at--two things I am going to focus on, and 
Mr. Donohue did so articulately, so I will go quickly through 
them, is the codification of the two-week visa processing 
standard. We are getting there. We got it now. Let us codify 
it, let us make sure it stays.
    Next is the expansion of the Visa Waiver Program. We have 
spoken articulately about that. And the problem is the press 
has had a field day with our policies and what happens and the 
perception around the world hurts us so much not only in people 
coming here, but in the perception of America.
    The challenges we have talked about are large. When you 
really look at the Executive order, it has huge opportunities. 
But with the JOLT Act, I think you really look at the Visa 
Waiver Program, as Senator Feinstein talked so much about 
security, it really is a national security program when you 
look at the Visa Waiver Program. When you had in 2007, when 
Congress really added all those criteria to the Visa Waiver 
Program, they really phenomenally enhanced since the shoe 
bomber and people like that tried to get here, all that data 
and the data sharing is so important.
    Requiring overstays to be less than three percent is a 
qualification. In fact, John Cohen, who is a homeland security 
terrorism expert, says visa waiver countries have less than one 
percent overstays. So I think the recommendation of allowing 
the Secretary of Homeland Security to designate countries to go 
into the program would be a great opportunity.
    So, in closing, I would like to say the same thing. Global 
travel is booming. We are not getting our fair share. People 
have choices to go anywhere in the world, and the world is 
promoting them to come there. Interest in coming to the U.S. is 
huge. Everybody wants to come here. But potential visitors are 
discouraged by the real and perceived hassles, and this program 
would eliminate that, and we can do it at no cost to the 
taxpayers and no cost to security.
    We need to recapture that share, and we appreciate 
everyone's continued interest in this. It will make a 
difference in jobs and how we stand and to our economy, and we 
would like to work side by side with you, and this is a great 
bill.
    Thank you.
    [The prepared statement of Mr. Dow appears as a submission 
for the record.]
    Chairman Schumer. Thank you.
    And now Ms. Gambler.

    STATEMENT OF REBECCA GAMBLER, ACTING DIRECTOR, HOMELAND 
 SECURITY AND JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, 
                         WASHINGTON, DC

    Ms. Gambler. Good morning, Chairman Schumer and Members of 
the Subcommittee. I appreciate the opportunity to testify at 
today's hearing to discuss GAO's work on the Visa Waiver 
Program as well as overstay enforcement. In both areas, I would 
like to cover progress made by the Department of Homeland 
Security as well as challenges that need to be addressed.
    First, under the Visa Waiver Program, from fiscal year 2005 
through 2010, over 98 million visitors were admitted to the 
United States. Since 2001, we have issued five reports that 
have highlighted progress made by DHS in managing the program. 
For example, the Department has implemented the Electronic 
System for Travel Authorization, or ESTA, as required by the 9/
11 Commission Act, and took steps to minimize the burden 
associated with this requirement. Airlines are now complying 
with ESTA requirements about 99 percent of the time.
    Further, about half the countries in the Visa Waiver 
Program have signed required information-sharing agreements 
with the U.S. for such things as lost and stolen passports and 
watchlists. While these are positive developments, we have also 
identified challenges in DHS' management and oversight of the 
program.
    For example, in 2010, about 360,000 travelers boarded 
planes for the U.S. without verified ESTA approval. DHS is now 
taking actions to review a sample of noncompliant travelers to 
identify potential risks posed by these travelers.
    In addition, while a number of Visa Waiver Program 
countries have signed information-sharing agreements with the 
United States, we have reported that many of the agreements 
have not yet been implemented. DHS had established a schedule 
to finalize the agreements by June 2012; however, at this point 
it is unclear whether DHS will meet this target timeframe.
    Now turning to the issue of overstays, in 2006 the Pew 
Hispanic Center estimated that there were between four million 
and 5.5 million overstays in the U.S. out of an estimated total 
unauthorized alien population of about 11.5 million to 12 
million. DHS has made progress in addressing overstays. For 
example, DHS' Immigration and Customs Enforcement, or ICE, uses 
a risk-based approach for allocating its limited resources to 
address overstays. It focuses those resources on potential 
overstays who are more likely to pose homeland security or 
public safety threats. ICE has also considered plans for 
expanding resources it dedicates to overstay investigations.
    However, as we reported, DHS has taken action to address a 
small portion of the estimated overstay population. For 
example, from fiscal year 2004 through 2010, ICE's unit 
primarily responsible for overstay investigations made about 
8,100 overstay arrests, and ICE devoted about three percent of 
its investigative resources to overstays.
    In addition, DHS has some data reliability issues that 
hinder the Department's efforts to identify overstays. For 
example, DHS has implemented an entry capability under the US-
VISIT program through which the Department collects biographic 
and biometric data on foreign nationals. However, and as we 
have discussed, DHS has not yet implemented a biometric exit 
system, and there is inconsistent collection of departure 
records at land ports of entry.
    DHS' current process to identify overstays involves 
matching primarily biographic entry and exit information. As a 
result of these challenges and others, DHS cannot yet reliably 
identify overstays in the U.S.
    In closing, the Visa Waiver Program was designed to 
facilitate international travel and focus limited resources on 
higher-risk visa applicants. Much progress has been made to 
address issues we previously identified, and the Federal 
Government is better positioned today to identify and prevent 
potentially dangerous travelers from boarding U.S.-bound 
flights under the program.
    That said, we have reported that the program continues to 
face challenges and that DHS has a ways to go to address 
overstay issues. We have made a number of recommendations to 
DHS in these areas to help strengthen implementation efforts, 
and the Department has generally concurred with these 
recommendations.
    This concludes my oral statement. I would be pleased to 
answer any questions Members may have.
    [The prepared statement of Ms. Gambler appears as a 
submission for the record.]
    Chairman Schumer. Thank you for your excellent testimony. 
GAO does a great job because of people like you who have been 
there for a long time working hard.
    I will save my questioning for the end so my colleagues can 
move along, and I am going to start with Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Ms. Gambler, how do you keep track of someone who comes in 
on a visa? Do we find out where they are staying? Do they have 
to say where they are staying? And what happens if they do not 
exit in time? Do we know that if they do not exit when they say 
they were going to?
    Ms. Gambler. When foreign nationals enter the U.S., they 
are required to provide an address of where they will be 
staying for the time that they are in the country. If they do 
not abide by their authorized periods of admission and do not 
leave the country by that time, the Department of Homeland 
Security generates basically a list of those individuals who 
they have entry records but for whom they do not have a 
corresponding departure record for and their departure time has 
passed. And that is the starting place for DHS to try to 
identify overstays.
    There are some difficulties in having complete departure 
records. As we mentioned, there is no biometric exit system, 
and at land ports of entry, as people depart the U.S., they are 
voluntarily turning in their entry-exit forms. There is no 
consistent collection of those forms as they leave the country.
    Senator Franken. OK. Thank you.
    Mr. Dow, in your testimony you focus--first of all, I would 
like to thank you for mentioning the Mall of America.
    Mr. Dow. Great place.
    Senator Franken. And Mr. Donohue as well. You know, it is 
very convenient to the airport, actually.
    Mr. Dow. Yes, it is.
    Senator Franken. Mr. Dow, in your testimony you focus on 
the codification of a two-week or 10-day visa processing 
standard. If a tourist wants to come to the U.S., they should 
not have to wait endlessly for a visa appointment. The 
administration has made major improvements in key countries 
like China and Brazil, and the JOLT Act builds on that 
progress. It requires that the State Department submit a 
strategic plan for bringing down wait times along with an 
account of the resources required to do that.
    Can you tell us what happens to the funds that consular 
posts collect in visa application fees? The reason I ask this 
is because I am wondering whether speeding up the process would 
involve significant new costs or would instead produce a 
virtuous cycle. More visas processed means more visa fees, 
which could in turn support the increased capacity at the State 
Department to meet the demands for the visas.
    Mr. Dow. Senator Franken, first, on the funds, as Senator 
Klobuchar said, each of the officers, consular officers, brings 
in--they interview 12,000 people a year, so they bring in about 
$1.5 to $2 million each, and fully loaded, maybe there are 
300,000 with training, travel, et cetera. So they are a profit 
center of $1.2 million. But it does not even count the $65 
million that the people they interview bring to this country, 
so it is a huge opportunity.
    As far as allocation of the funds, the funds go back to the 
State Department to that area. However, also the Secretary of 
State has the ability to allocate funds in different places. 
But if you were running this as a business, you would add those 
people as quickly as possible. I call it very much like having 
one cashier at Costco during the holidays. It makes no sense. 
You could make a lot of money. You can get the people through, 
and you can focus the resources on finding the bad guys versus 
the good guys. So it is a huge opportunity and no cost to the 
U.S. Government.
    Senator Franken. Now, you talk also about the barriers that 
particularly stifle travel from high-growth countries such as 
Brazil, China, and India. That pretty much tracks what I have 
heard in Minnesota.
    Obviously a lot of our international tourists come from 
Canada, but to take one example, folks at the Mall of America--
have we mentioned that? Oh, yes, we have.
    [Laughter.]
    Senator Franken. They have identified those same countries 
as emerging markets for visitors to the Mall. And as I said, 
shopping is a huge part of the tourism industry in Minnesota, 
along with recreation. You referred to those visitors as ``high 
spend.'' Can you talk a little bit more about the patterns of 
spending among tourists from those relatively new markets?
    Mr. Dow. Those new markets, basically all you have to do is 
stand at the airport and watch the folks return to China, 
India, Brazil, et cetera. They have no problem paying the 
excess baggage fees. They pay a lot because those bags are full 
of American products. The Brazilian traveler spends up to 
$5,000 per person. The average is $4,000 internationally. The 
Chinese spend up to $6,000, so they are among our largest 
spending.
    We had the head of China tourism here and the 31 provincial 
ministers to a meeting in Orlando. We meet every year with 
them. The one thing they want to do is go to an outlet mall. 
These are people that have very high level, and they said, ``We 
need more time at the malls.'' So when people go somewhere, the 
question they ask is: What do you do? Where can you shop? At 
least my wife does. And where is a good place to eat?
    So the amount of money that these people spend, 
discretionary income, is huge, and a lot of it, a huge portion, 
goes to the retail community.
    Senator Franken. Well, thank you, and I just want to say 
what a culinary renaissance we have had in the Twin Cities of 
late.
    Mr. Dow. Absolutely.
    [Laughter.]
    Chairman Schumer. Including fish, I presume.
    Senator Franken. Oh, the walleye in Minnesota, always 
available and always fresh.
    Chairman Schumer. Senator Sessions.
    Senator Sessions. But no worms, I hope.
    [Laughter.]
    Senator Sessions. Senator Franken, before you leave, just 
one thing I would like to clarify because it relates to your 
question and the GAO witness. But the fact is they declare 
where they are going, but in overall statistical terms, nobody 
is tracked, nobody has to go where they say they are going to 
go, nobody is out looking for people who overstay, and there is 
no mechanism whatsoever as a practical matter. Is there, Ms. 
Gambler?
    Ms. Gambler. Well, two points, Senator. One, we have said 
ICE devotes about three percent of its investigative resources 
to overstay enforcement, and that is relative to the overall 
resources that they have. And so if you do overstay your 
authorized periods of admission, unless you act out in some way 
or are prioritized by ICE as being a threat to national 
security or public safety, you may go undetected.
    Senator Sessions. Wait a minute. I will answer the 
question. Nobody looks, nobody checks, because we do not have 
the money, resources, or a mechanism. And, in fact, when a 
person is apprehended by a police officer for a DUI and they 
are illegally here, if they determine that, nothing is done 
about that, whether they came in across the land border or flew 
in and overstayed, because they release them. That is the 
policy throughout America because ICE and Border Patrol will 
not come and get them.
    So, anyway, the numbers are so large that I just wanted to 
highlight the fact that we are pretty much on a volunteer honor 
system. And the best way to tighten it up would be a good 
biometric system.
    Ms. Gambler, Senator Feinstein mentioned biographic and you 
mentioned biographic and biometric, I believe. Would you 
describe the difference between a biographic and biometric 
identifier for people who enter the country?
    Ms. Gambler. Sure. Biographic information is basically 
name, passport number, country of origin, that kind of 
information. A biometric indicator for the purposes of an 
entry-exit system is currently a photograph and fingerprints, 
and those fingerprints are taken when a person applies for 
admission at a port of entry.
    Senator Sessions. One of the requirements of the Visa 
Waiver Program is that the country have a biometric passport 
with a biometric identifier; is that correct?
    Ms. Gambler. I believe the requirement for the Visa Waiver 
Program is that it be a machine-readable passport and that it 
have electronic information embedded in the passport, an e-
passport.
    Senator Sessions. Well, this has been discussed in years 
past when we have dealt with this, and nobody wants to confront 
it, but it is rather simple, it seems to me. If you move, Mr. 
Donohue and Mr. Dow, to a prompt entry-exit system, the one I 
would like to see is here you have something like a driver's 
license; a businessman would not mind paying for this, 
especially if he is going to come maybe many times to the 
United States. He puts it in a machine that reads it and goes 
on through.
    Well, the problem is, the obvious problem is anybody could 
take anybody else's card and put it in the machine. So the way 
to deal with that is to have a biometric, not a biographic data 
but a biometric system.
    Now, Mr. Ridge, he and I had many conversations on this, 
and the last thing he said when he left Homeland Security was, 
``You should use the fingerprint biometric.'' That is so 
because our entire criminal justice system, every fugitive is 
already fingerprinted, we are looking for them, that kind of 
thing.
    So what should happen is a biometric should be in this 
card, and then if it is a fingerprint and it is your 
thumbprint, you put your card in the machine and you put your 
thumb on the machine. It compares the card to your thumb, and 
if you are the person on the card, you go right on through and 
it takes just a few seconds. And, indeed, right now police 
officers in America have in their cars machines that read 
people's fingerprints. So if they arrest somebody on the 
highway, they print them, and the computer while he is talking 
to him finds out they are wanted for murder in South Jersey. 
And it can be done with immigrants, too, but it is not being 
done.
    Chairman Schumer. It is not being done if you pick up 
somebody DWI? Do they check their immigration status?
    Ms. Gambler. They do if the jurisdiction or the State is 
enrolled in the Secure Communities program.
    Chairman Schumer. It is up to the State.
    Senator Sessions. That is not exactly correct. Ms. Gambler 
is technically correct, but what happens is that there are two 
different systems. They are not merged. So you have to run--the 
police officer has got to run both the immigration system and 
this one. He does not have the automatic immigration system. He 
has got to call some ICE person that he does not know. And the 
fact is they do not do it, because I talked to them. I asked, 
``What happens if you arrest somebody in your community 
illegally in the country? '' And they say, ``Nothing. We let 
them go.'' That is the policy throughout America because nobody 
will come and get them if they detain them.
    All right. So has any study been done of a biometric system 
like this that could expedite and enhance the security of the 
system?
    Ms. Gambler. Senator, the Department of Homeland Security 
has tested over the years various pilot programs for trying to 
capture biometric information from foreign travelers as they 
leave the U.S., specifically at airports and seaports. Our 
understanding is that they are studying the results of those 
pilots and that they are planning to issue a plan, as we 
discussed earlier, sometime in the coming months.
    Senator Sessions. Now, is that going to be biometric, as 
you understand it?
    Ms. Gambler. That is our understanding. We have not seen 
the plan. We have not evaluated it.
    Senator Sessions. Well, that would be a key thing, that it 
be a biometric and not, as Senator Feinstein expressed concern, 
biographic because a biographic just--it is probably not worth 
the effort. It will not be much better than we are today.
    With regard to our visa waiver countries, we should insist 
that they meet the minimum standards that it requires. You said 
only about half of the countries are in compliance with the 
information sharing on such things as lost or forged passports 
and things of that nature. Is that accurate?
    Ms. Gambler. That is right. About half of the countries in 
the Visa Waiver Program have currently signed the required 
information-sharing agreements.
    Senator Sessions. Now, Mr. Donohue, if someone--European, 
Chinese, Brazilian--business people who travel a lot, don't you 
think they would be perfectly willing to pay several hundred 
dollars, if need be, to get a card that will allow them to 
prompt entry and exit and have a biometric in it so it would 
expedite their ability to travel? And couldn't this be a 
breakthrough that really would accelerate their ability to 
enter and exit the United States?
    Mr. Donohue. Conceptually, I think that is absolutely true. 
I think with lots and lots of smaller companies coming back and 
forth, that might be a question. But the only thing that we 
would all recognize is to get--the idea we are trying to 
shorten the time frame, we would have to make sure wherever 
these cards were being produced, that the time frame would not 
be impeded by a long period to produce the card. And then, of 
course, we do have a lot of challenges in the United States. 
Our own citizens are very reticent to have certain biometric 
identifiers, and you and I have been on both sides of that 
issue before.
    Senator Sessions. Well, give me a break. Do you want to 
come to the United States? Do you want to come quickly without 
a hassle? You go down to the embassy a week or two early, get 
your card, and then for maybe a decade or more, you are able to 
enter and exit----
    Ms. Gambler. If that was the deal, they would do that. They 
would do that. You are asking me would this be as smooth as the 
ice in Minnesota? No. But it would be worth pursuing.
    Senator Sessions. Thank you.
    Chairman Schumer. I think the problem with biometric is not 
any objection, just the cost, the cost of implementing it. In 
fact, as it is known, I proposed a biometric on the Social 
Security card to deal with illegal immigration, as Jeff and I 
have talked about.
    Senator Sessions. I would just say--do I still have time or 
am I over?
    Mr. Donohue. We might even get them on a voter registration 
card. That would be interesting.
    Chairman Schumer. They gave you two five minutes because 
they respect you so much.
    Senator Sessions. Oh, gosh. I wondered why I still had 
time. Well, with regard to a country that is not a visa waiver 
country but has many decent visitors who want to come to 
America, I think this could help them expedite their entry and 
exit and reduce the burden on the embassy people they have to 
repeatedly interview people.
    Mr. Donohue. Listen, there are a lot of advantages to 
technology.
    Chairman Schumer. That is in our bill. That is section 
eight of our bill.
    Just one other point, as I understand it, and then I will 
go right to Senator Klobuchar. As I understand it, if a police 
officer picks you up, say, for DUI, DWI, your prints are sent 
to the FBI. The FBI sends them to two places. They send to the 
NIC system, which looks at your criminal record. They also send 
them to the immigration system, and you get two reports--and 
the local police officer gets two reports back, one on criminal 
status and one on immigration status. I believe that is the 
case, but we will check that.
    Senator Sessions. I am not sure that is the case as a 
practical matter. But even so, the practical result is that 
nothing is done about the person who is here illegally because 
they are not--it is the policy not to do anything.
    Chairman Schumer. That is a different issue, but I think 
we--am I right about that, Ms. Gambler?
    Ms. Gambler. I believe that is how the process works. We 
actually have ongoing work right now reviewing the Secure 
Communities program. We would be happy to come up and brief you 
and your staff on it at any time.
    Chairman Schumer. Great. OK. Maybe you can do that for 
Senator Sessions and me, and anyone else who wants to come.
    Ms. Gambler. We will be happy to get in touch with the 
staff.
    Chairman Schumer. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Senator Schumer. 
All the times you mentioned Mall of America reminded me of--I 
wrote a book on the building of our domed stadium when I was in 
college, and Harvey McKay, who is a rather well-known 
businessman, had actually commissioned a survey to see how many 
times they used the word ``Minnesota'' when we were in the 
Super Bowl to bolster his argument for the stadium, and that is 
what this reminds me of, so thank you.
    The survey conducted by the Discover America Partnership, 
Mr. Dow, found that over 50 percent of respondents would not 
visit the U.S. if the visa process took longer than two weeks. 
This number jumps to 73 percent when the process takes two to 
three months. And so what I would like to know is: Do you think 
this is true? It is a survey. But, also, what have you seen in 
terms of progress that has been made since Mr. Nides came to 
the State Department--also a Minnesotan--and we started our 
work with Senator Blunt to try to push this issue?
    Mr. Dow. Well, yes, I do believe those numbers, and the 
important thing, especially when you talk about the economics, 
is not to confuse a long line with security. The security is 
the same when they get there. So I think if we improved those 
lines, as has happened with Tom Nides, who has done a 
tremendous job putting focus on that, there is a great 
opportunity. As Mr. Schumer says, you have traveled the world. 
When you go to Brazil and watch those people stand out in the 
sun and the rain, and all their relatives, for three hours just 
to come here, jump through the hoops of waiting 100 days, can 
you imagine if it was two weeks, if it was a very welcoming 
process, what we could get? And we are talking about adding a 
phenomenal amount of income to the United States. So, yes, I do 
believe those, and it can be easily improved.
    Senator Klobuchar. Now, I understand there has been some 
improvement in China. Hubert Joly from Carlson Companies has 
been tracking it. The number is improving, say, us versus 
England, in terms of the time it takes to get the visas. Do you 
have any of those numbers or are they verified?
    Mr. Dow. Yes, I do. There are five consulates in China. All 
of the five are under 15 days. They used to be up to 100 days. 
Now the question is: Is this sustainable? That is why this JOLT 
bill is so important to codify the two weeks, because you can 
make everything good for a while by refusing people, et cetera. 
But to keep those numbers, as the brand USA begins promoting, 
it is easier to come to the United States as far as time in 
line, more people want to come. So it is very important to 
codify and keep that two weeks. They have done a great job, but 
we need sustainability.
    Senator Klobuchar. Mr. Donohue, did you want to add 
anything?
    Mr. Donohue. I think this is a very, very good discussion 
because it had two parts to it. One is how do we bring more 
people here for tourism and business and for our value, and the 
value is money, but it is something else, too, and that is, 
when you bring people to the United States, which we have 
demonstrated over a long period of time, it builds better 
relationships with folks all around the world.
    The second part of this discussion today, which I think the 
Chairman sees as an important characteristic of what has to be 
dealt with here, is the security issue, and I think 
notwithstanding what is in the bill and what is not in the 
bill, both Senator Sessions and Senator Feinstein raised a 
number of issues that we should collectively look at. You never 
get a benefit without a risk, and we have to marginalize--keep 
the risk at a marginal level and try and drive the benefit as 
high as we can. The use of technology and the use of very sound 
intelligence will help us, and I think we put everybody in the 
same place and get two benefits for one bill.
    Senator Klobuchar. One of the things that is not in the 
bill that I would still like to continue to explore--I know 
that you would, Mr. Dow--is the idea of the videoconferencing 
for some of these visa interviews, this idea that you could do 
teleconference when you have situations in some countries where 
people are hours away from the nearest office where they could 
even get a visa. And I hope that is something that we pursue in 
the future because I have even heard the argument made that 
there could be some advantages from a security standpoint 
because they will have it on video so other people can look at 
the videos if they want to get a sense of how someone reacts 
and watch their eye movement or do whatever they want in these 
interviews. So I hope it is something that we explore going 
forward.
    I just wanted to end by emphasizing that we have been 
talking a lot about statistics and money, but it is really 
important to remember that this is about the owner of a small 
flower shop in Knoxville, or it is the hotel worker who has 
their first job out of college in Minneapolis and wants to move 
up at the hotel, or the waitress in New York City who is going 
to finally get some more tips in because people are coming into 
the restaurant that would not come in before, and that these 
are American jobs, and that is why this JOLT Act is so 
important.
    So thank you to all of you.
    Mr. Dow. I am in.
    Mr. Donohue. And they are non-exportable jobs. You cannot 
outsource these jobs, which is a huge benefit.
    Senator Klobuchar. Exactly. Thank you.
    Mr. Donohue. Thank you for all you do.
    Chairman Schumer. Thank you, Senator Klobuchar of 
Minnesota, home of the Mall of Americas.
    [Laughter.]
    Senator Klobuchar. That sounds like--it is Mall of America, 
and when you visit, you will see that.
    Chairman Schumer. Oh, I see. Mall of America. We had hoped 
to build in Syracuse a mall even larger than the Mall of 
America with green bonds, but it has not happened yet.
    I have some questions, but I am going to submit them for 
the record since we said we would end this hearing in a timely 
way. And Senator Feinstein has three more questions, and she 
will submit them for the record.
    Chairman Schumer. Senator Sessions, do you have any other 
questions?
    Senator Sessions. I do not. And I would submit my statement 
for the record and a statement from Mr. John Martin of 
Federation for American Immigration Reform regarding biometric 
entry-exit.
    Chairman Schumer. OK.
    [The prepared statement of Senator Sessions appears as a 
submission for the record.]
    [The prepared statement of Mr. Martin appears as a 
submission for the record.]
    Senator Sessions. Thank you. It has been a very good 
hearing. Thank you all.
    Chairman Schumer. It really has. We are trying to move this 
bill, and the only way we will be able to move it is if it will 
not be a two-week contentious debate. And I think this hearing 
has narrowed down those parameters, you know, for people who 
want to help get this bill done, like Senator Feinstein and 
Senator Sessions, but who might have a few objections.
    Senator Sessions. The only thing I would say to our 
witnesses, Mr. Dow and Mr. Donohue, we should not be here 
today. You probably know the history. Senator Feinstein does. 
Since I came here 15 years ago, we have been talking about a 
biometric entry-exit system that works. That could have been 
done years ago. It is still not done, and it is one of the big 
irritants and has slowed down some of the things you would like 
to see accomplished.
    Chairman Schumer. I would agree with you, but I would say 
we have got to pay for it. It is expensive. It works, but it is 
expensive. We will get the money back in terms of tourism and 
everything else.
    Mr. Donohue. It will bring a lot more travelers. They will 
leave a lot more money. They will pay a lot more taxes, and 
then we can afford the system.
    Chairman Schumer. I believe in a biometric system strongly. 
It is just you cannot ask for one and then not pay for it. That 
is why we are here for 15 years. And we get the money back, 
but, you know, the way our budgeting system works, 
unfortunately, all the increase in income tax, sales tax, and 
all those other taxes, which would accrue to the Federal 
Government and to the States, is never calculated when we do 
things like this. And it is one of the reasons we, 
unfortunately, look at things too short term.
    Having said that, this hearing was a really good hearing. I 
agree with Senator Sessions and Senator Klobuchar. It has 
helped us narrow our differences. And it is my hope that we 
could move our bill rather quickly, maybe in time for the 
summer tourism season. I need not tell you how much New York 
benefits from tourism, and we are booming even with these 
problems because many of the visa waiver people visit New York, 
being European. Our tourism industry is booming. We have had a 
record number of tourists this year. The foreign tourists spend 
more money than the Americans, you know, the people from other 
States, and it is really important to our economy.
    One other point I would make: It creates jobs particularly 
at the lower levels. It is the ladders up when people work in 
hotels or drive the cabs or anything else that gives people the 
kind of jobs we are really looking for where we have had the 
highest unemployment. So moving this is really, I think, a 
national imperative, and I will do everything I can to do it.
    I thank Senator Sessions, I thank Senator Klobuchar from 
Minnesota and the Mall of America, and I thank our witnesses.
    Mr. Donohue. Thank you very much.
    Ms. Gambler. Thank you.
    [Whereupon, at 11:27 a.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]



                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                Prepared Statement of Hon. Jeff Sessions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                  Prepared Statement of Hon. Mike Lee

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                    Prepared Statements of Witnesses

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Questions for Thomas Donohue Submitted by Senator Dianne Feinstein

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Questions for Roger Dow Submitted by Senator Dianne Feinstein

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Questions for Rebecca Gambler Submitted by Senator Dianne Feinstein

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       Questions for Thomas Donohue Submitted by Senator Mike Lee

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Questions for Roger Dow Submitted by Senator Mike Lee

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Questions for Rebecca Gambler Submitted by Senator Mike Lee

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Questions for Rebecca Gambler Submitted by Senator Jeff Sessions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                         Questions and Answers

    NOTE: At the time of printing, after several attempts to 
obtain responses to the written questions, the Committee had 
not received any communication from Thomas Donohue.

    NOTE: At the time of printing, after several attempts to 
obtain responses to the written questions, the Committee had 
not received any communication from Roger Dow.

 Responses of Rebecca Gambler to Questions Submitted by Senators Jeff 
                Sessions, Mike Lee, and Dianne Feinstein

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                Miscellaneous Submissions for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
